No. 19A-_____
IN THE
SUPREME COURT OF THE UNITED STATES

TONY DESHAWN MCCOY,

Applicant,
v.
UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit

APPLICATION FOR EXTENSION OF TIME TO FILE
A PETITION FOR A WRIT OF CERTIORARI

Ann L. Hester
Assistant Federal Public Defender
FEDERAL PUBLIC DEFENDER
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
129 West Trade Street
Suite 300
Charlotte, North Carolina 28202
(704) 374-0720
Ann_Hester@fd.org

Pamela S. Karlan

Counsel of Record

STANFORD LAW SCHOOL
SUPREME COURT
LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, California 94305
(650) 725-4851
karlan@stanford.edu

APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION FOR
A WRIT OF CERTIORARI
TO: Chief Justice John G. Roberts, Jr., Circuit Justice for the Fourth
Circuit:
Under this Court’s Rules 13.5 and 22, Applicant Tony Deshawn McCoy
requests an extension of thirty days to file his petition for a writ of certiorari.
That petition will challenge the decision of the United States Court of
Appeals for the Fourth Circuit in United States v. McCoy, 773 Fed. Appx. 164
(4th Cir. 2019), a copy of which is attached. In support of this application,
Applicant states:
1. The United States Court of Appeals issued its decision on July 12,
2019. App. 1a. That court denied a timely filed petition for rehearing en banc
on August 26, 2019. App. 4a. Without an extension, the petition for a writ of
certiorari would be due on November 25, 2019. With the requested extension,
the petition would be due on December 26, 2019. This Court’s jurisdiction will
be based on 28 U.S.C. § 1254(1).
2. This case is a serious candidate for review. It raises the question
whether, whenever an officer has reason to believe that a person he has
lawfully stopped possesses illegal drugs, the officer can conduct a full-scale
search of the individual because the “indisputable nexus between drugs and
guns presumptively creates a reasonable suspicion” that the stopped

1

individual is armed and dangerous, App. 2a (quoting United States v. Sakyi,
160 F.3d 164, 169 (4th Cir. 1998)).
In this case, Applicant was stopped for driving an apparently
improperly registered vehicle with a cracked windshield and for a seat-belt
violation. App. 5a. 1 Applicant was entirely cooperative during the stop. As
one of the officers later acknowledged, he “did everything that we tell young
people to do when they’re stopped by the police.” C.A. Jt. App. 54.
Officers had noticed an odor of marijuana during the traffic stop. App.
6a. Upon being questioned, Applicant disclosed that he had a “little bit” of
marijuana in his pocket. C.A. Jt. App. 36. At that point, police handcuffed
him, id. 56-57, and an officer searched his pocket, where the officer
discovered the marijuana, App. 6a. The officers did not, however, formally
arrest him. C.A. Jt. App. 57. The officer then continued his search, ultimately
discovering a gun in Applicant’s waistband. Id. 36; App. 6a.
3. Applicant was charged with being a felon in possession of a firearm,
in violation of 18 U.S.C. § 922(g)(1). App. 7a. He moved to suppress the gun,
contending that the officer’s search for a weapon violated the Fourth
Amendment because the officer lacked reasonable suspicion to believe that
Applicant was “armed and dangerous,” as Terry v. Ohio, 392 U.S. 1, 27
(1968), requires. The district court denied that motion, relying on

1

In fact, the vehicle was properly registered, as the officers subsequently
determined. See C.A. Jt. App. 42-46.
2

longstanding Fourth Circuit precedent that officers are entitled to presume
from the presence of illegal drugs that a subject is armed. App. 11a.
Applicant then entered a conditional guilty plea, preserving his right to
appeal the district court’s denial of his suppression motion.
On appeal, the Fourth Circuit affirmed. App. 2a. It reiterated the
longstanding position of the circuit, articulated in United States v. Sakyi, 160
F.3d 164, 169 (4th Cir. 1998). There, the court declared that because “a
person carrying controlled substances is likely armed” there is a presumption
that such a person is dangerous to officers and can be subjected to a Terry
search. App. 3a. The panel acknowledged that “some courts ha[d] rejected

Sakyi,” but considered itself bound by circuit precedent. Id. The full court
ultimately denied a petition for rehearing en banc. Id. 4a.
4. The Fourth Circuit’s reaffirmance of the presumption it adopted in

Sakyi further entrenches a conflict over whether, or when, the presence of
illegal drugs can create a reasonable suspicion that an individual is armed
and dangerous, and therefore can be searched consistent with the Fourth
Amendment.
Numerous state courts of last resort have taken the position that the
simple presence of illegal drugs creates no presumption of dangerousness,
with several of those decisions expressly rejecting the Fourth Circuit’s
decision in Sakyi. See, e.g., Somee v. State, 187 P.3d 152, 158 (Nev. 2008)
(“We do not adopt the apparent per se rule linking drugs and guns used in
3

the Fourth Circuit . . . .”); Commonwealth v. Grahame, 7 A.3d 810, 811 (Pa.
2010) (rejecting a “‘guns follow drugs’ presumption”); Furr v. State, 499
S.W.3d 872, 880-81 (Tex. Crim. App. 2016) (refusing to adopt a rule “that it is
per se objectively reasonable for the police to pat down a suspect for weapons
if they are accused of possessing drugs”); State v. Baker, 229 P.3d 650, 666-67
(Utah 2010) (absent specific reason to believe an individual is armed and
dangerous, officers’ “suspicion of drug possession cannot support a reasonable
belief that the individual posed a threat”); Upshur v. United States, 716 A.2d
981, 984 (D.C. 1998) (the connection between drugs and guns “standing alone
is insufficient to warrant a police officer’s reasonable belief that a suspect is
armed and dangerous”). Of particular salience, the highest court in
Maryland, a state within the Fourth Circuit, has expressly rejected Sakyi’s
reasoning: “[W]e simply do not adopt the view that the odor of marijuana
alone emanating from a vehicle gives rise to the inference that a passenger in
the vehicle is potentially armed and dangerous.” Norman v. State, 156 A.3d
940, 967, 970 (Md.), cert. denied, 138 S. Ct. 174 (2017).
Nor has any other federal court of appeals adopted Sakyi ’s broad rule
that suspicion of simple possession of marijuana justifies a presumption that
a suspect is armed and dangerous. Instead, to the extent that other circuits
permit an inference of dangerousness to be drawn from the presence of illegal
drugs, they have required a reasonable suspicion to believe that the suspect
is involved in drug distribution. See, e.g., United States v. Davis, 726 F.3d
4

434, 440 (3d Cir. 2013) (stating that “officers had a reasonable belief” that the
suspects were armed and dangerous “[b]ecause drug dealers often carry guns”
(quotation marks omitted)); United States v. Rivera, 101 Fed. Appx. 166, 171
(7th Cir. 2004) (referring to a suspect “engaged in a drug transaction” and
declaring “drug traffickers” can be presumed to be armed and dangerous)
(quoting United States v. Serna-Barreto, 842 F.2d 965, 967 (7th Cir.1988)));

United States v. Robinson, 119 F.3d 663, 667 (8th Cir. 1997) (referring to
individuals “suspected of being involved in a drug transaction”); United

States v. $109,179 in U.S. Currency, 228 F.3d 1080, 1086-87 (9th Cir. 2000)
(referring to individual reasonably suspected of “dealing in narcotics”);

United States v. Hishaw, 235 F.3d 565, 570 (10th Cir. 2000) (referring to
reasonable suspicion that the defendant “was distributing drugs”—in fact,
crack cocaine).
5. The question presented has taken on increasing importance in
recent years. While possession of marijuana remains a crime under federal
law, a majority of states now permit at least some individuals to possess
marijuana, and a growing number of states have decriminalized simple
possession altogether. That legalization undermines the assumption, if
indeed it ever was valid, that marijuana possession is strongly enough
connected to weapons possession to presume people who possess marijuana
are armed and dangerous. Permitting the police to conduct intrusive searches
of individuals, without any articulable basis for believing that an individual
5

poses a threat beyond a suspicion that he possesses marijuana for personal
use, unjustifiably threatens those individuals’ privacy.
6. This application for a thirty-day extension seeks to accommodate
Applicant’s legitimate needs. Applicant has only recently affiliated
undersigned counsel at the Stanford Supreme Court Litigation Clinic. The
extension is needed for undersigned counsel and other members of the Clinic
to fully familiarize themselves with the record, the decisions below, and the
relevant case law. In light of the Clinic’s many other obligations, the Clinic
would not be able adequately to complete these tasks by the current due date.
For these reasons, Applicant requests that the due date for his petition
for a writ of certiorari be extended to December 26, 2019.
Dated: November 6, 2019

Respectfully submitted,
By:

Ann L. Hester
Assistant Federal Public Defender
FEDERAL PUBLIC DEFENDER
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
129 West Trade Street
Suite 300
Charlotte, North Carolina 28202
(704) 374-0720
Ann_Hester@fd.org

Pamela S. Karlan

Counsel of Record

STANFORD LAW SCHOOL
SUPREME COURT
LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, California 94305
(650) 725-4851
karlan@stanford.edu

Counsel for Applicant

6

